20-7009

No.

In The

Supreme Court of the United States
Mark Rudolph Arsenio Reed, In Pro Se
Petitioner,
V

Robert Toole, Warden/Regional Director
Georgia Department of Corrections et,al.
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR REHEARING/RECONSIDERATION

Mark Rudolph Arsenio Reed
GDC 1000664635
GEORGIA STATE PRISON
300 1st Avenue, South

Reidsville, GA 30453
In Pro Se

ti

DATE: April 21, 2021

RECEIVED
MAY -5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

11

TABLE OF CONTENTS
Table of contents

ii
iv

List of Parties
Index of Appendices
Table of Authorities

ii

Petition for Rehearing/Reconsiderationi

1

Jurisdiction
Constitutional Provisions, Statute, and Rule Involved

1
Appendix
1

Grounds for Rehearing/Reconsideration

Oral amendment of the indictment voids the indictment, violates 14th
4
amendment due process of the law
The oral amendment made by prosecutor does violate petitioners 6th amendment
6
right to notice
Petitioners rights to post conviction review and direct appeal have been
8
unconstitutionally foreclosed against him by the trial court
Indigent defendants are the deprived class

9

The 6th and 14th amendments guarantee the effective assistance of counsel
throughout critical stage, this has been violated by the state trial court 11
A void order is void Ab Initio and does not have to be declared void by a judge 13

INDEX TO APPENDICES
Page
APPENDIX A-1- Order of the United States Supreme Court Denying Certiorari
Review.

iii
TABLE OF AUTHORITIES
Cases
FEDERAL CASES
Pg.13
Armstrong v Manzo, 380 U.S. 545
pg. 9, 10
Bounds v. Smith, 430 U.S. 817
Earle v McVeigh, 91 U.S. 503
pg. 1
pg. 8
Evitts v. Lucey, 469 U.S. 387 (1985)
Faretta v. California, 422 U.S. 806 (1975)
pg. 9
pg. 15
Freytag v Commissioner, 501 U.S. 868 (1991)
McDonald v Mabee, 243 U.S 90
pg 3
Pennoyer v Neff, 95 U.S. 714(1877)
Pg.3
Penson v. Ohio, 488 U.S. 75 (1988)
pg.11
Rose v Himely, 4 Cranch 241 (1808)
pg. 3
Stirone v United States, 361 U.S. 212
pg. 1
Thompson v Whitman, 18 Wall 457 (1873)
pg 3
United States v Cohen, 255 U.S. 81 (1921)
pg. 8
Fn. pg. 21
United States v. Cronic, 466 U.S. 653
United States v. Cruishank, 92 U.S. 542 (1875)
pg. 7
United States v Holtman, 762 F.2d 720 (9th cir. 1985).. Pg. 3
pg15
United States v Walker, 109 U.S. 758 (1983)
pg. 15
Valley v. Northern Fire Ins., 254 U.S. 348 (1920)
Windsor v McVeigh, 93 U.S. 274 (1876)
pg 3
vi
STATE CASES
Boswell v. State, 114 Ga. 40 (1901)
Gentry v State, 63 Ga. App 275 (1940)
Goldsmith v State, 58 S.E 486 (1907)
Ingram v State, 211 Ga, App. 252
McKay v. State, 234 Ga. App. 556 (1998)
Minhinnett v State, 106 Ga. 141 (1898)
Ponder v State, 121 Ga. App. 788 (1970)
Sewell v State, 229 Ga. App. 685 (1997)
Shelnut v. State, 289 Ga. App. 528 (2008)
State v. Graves, 322 Ga. App. 798 (2013)
State v Williams, 247 Ga. 200 (1981)
Taylor v. State, 303 Ga. 583 (2018)
Thompson v. State, 58 Ga. App. 452 (1938)

pg. 2 fn.
pg. 4
pg. 4
pg. 4
pg. 2,14
pg. 7
pg. 8
pg. 2
pg. 2
pg. 13
pg. 19
pg. 2
pg. 2

CONSTITUTION
pg 11
United States Const. Amend. I
pg
10,12
United States Const. Amend. VI
United States Const. Amend. XIV Due process, Equal Protection ...pg 10,12
OFFICIAL CODES OF GEORGIA
O.C.G.A 17-9-61(a)-(b)
FEDERAL CODES
28 U.S.C. § 2254 (d)(1)-(2); 28 U.S.c. 2253(c)(2); AEDPA

p. 12

pg 2

iV

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list
of all the parties to the proceeding in the court whose judgement is the
subject of this petition is as follows:
The petitioner Mark R.A. Reed is the petitioner listed in the action No.
20-10802 before the Eleventh Circuit. Robert Toole is Warden / Regional
Director named as respondent to in action No. 20-10802. Megan Hill and
Paula K. Smith were
respondents on behalf of the state of Georgia in the habeas action No.
1:18-cv-03970-AT before the magistrate court in the United States District
Court, Northern District of Georgia. They were not parties before the
District Court nor the United States Court of Appeals.

20-7009
1
In The

Supreme Court of the United States
Mark Rudolph Arsenio Reed, In Pro Se,
Petitioner,
v.
Robert Toole, Warden, Regional Director ., et al.,
Respondents.
Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

*

PETITION FOR
REHEARING/RECONSIDERATION
Pursuant to Rule 44, petitioner Mark R. A. Reed
respectfully petitions this Court to reconsider petitioners
petition to this court to issue a writ of certiorari to review
the order of the United States Court of Appeals for the
Eleventh Circuit denying a Certificate of Appealability
("COA") to review the denial of his petition for a writ of
habeas corpus relief before the Northern Federal District
Court of Georgia in his Georgia State criminal case.

Grounds For Rehearing /Reconsideration
Petitioner Mark Reed brings this petition for rehearing
/reconsideration before this court stating the following
facts:
Every person is entitled to an opportunity to be heard in a
court of law upon every question involving his rights or
interests, before he is affected by any judicial decision on
the question. Earle v McVeigh, 91 US 503, 23 L Ed 398.
Mr. Reed stands alone before this court in the regards

2
that Mr. Reed's allegations (defenses) have never been
adjudicated before the trial court, a state appellate court,
the magistrate court, district court, the lower court.
Mr. Reed asserts that the evidence of the record
provided in the Petitions Appendix A-J and the applicable
law presented, amounts to, proves and establishes 'Legal
Innocence' on behalf of the petitioner.
Mr. Reed asserts the defense of Legal Innocence. Mr.
Reed alleges distinctly that the trial court is without
subject matter jurisdiction to enter and pronounce
judgement of conviction in this case, that in addition, the
trial court, by existing state law, does not have subject
matter jurisdiction to rule upon the grounds alleged in the
motion for new trials, to which are now the principle
allegations before the federal courts under 28 U.S.C.
§2254. Each court has adopted that ruling and
unauthorized findings of fact.
An order that exceeds the jurisdiction of the court, is
void, or voidable, and can be attacked in any
1 " A motion for new trial is not the proper method to attack the
sufficiency of an indictment and does not provide a basis for the court
of appeals to review the indictment". Boswell v. State, 114 Ga. 40, 42
(1)(1901); Thompson v. State, 58 Ga. App. 452, 453 (1938); McKay v.
State, 234 Ga. App. 556, 557(14)(1998),Taylor v. State, 303 Ga. 583
(2018)

3
proceeding in any court where the validity of the
judgment comes into issue. (See Rose v. Himely
(1808) 4 Cranch 241, 2 L Ed 608; Pennoyer v. Neff
(1877) 95 US 714, 24 L Ed 565; Thompson v.
Whitman (1873) 18 Wall 457, 211 L Ed 897; Windsor
v. McVeigh (1876) 93 US 274, 23 L Ed 914;
McDonald v. Mabee (1917) 243 US 90, 37 Sct 343, 61
L Ed 608. U.S. V. Holtzman, 762 F.2d 720 (9th Cir.
1985)
The respondents do not oppose the material allegations.
Respondents have waived opposition in the lower state
courts and before this court. The only legal and qualified
address in this matter from the respondents is a series of
admissions stipulations placed on the record by the state
prosecutor admitting on the record, to the principle
allegations of Mr. Reed's. No one legally opposes Mr.
Reed.
This court has held that a ruling or judgement from
court with no subject matter jurisdiction cannot be of any
validation or subsequent use in any court concerning the
same subject and litigants, Armstrong v Manzo, 380 U.S.
545, 551, 552. And that, until that matter is properly
adjudicated the issue is still open. That leaves this court
in power and jurisdiction to adjudicate Mr. Reeds
allegations, for the first time.
Mr. Reed has been deprived the right to be heard on
the true merits of his allegations.

4
Mr. Reed has been deprived the right to be heard on
these allegations in the state trial court, which infringed
upon and foreclosed against him, diminishing his right to
be heard on his claims and allegations on direct appeal.
Mr. Reed has been denied the right to counsel during a
critical stage, and the availability of that effective
assistance of counsel to perfect the record for appeal, (..as
is for many Georgia prisoners, similarly situated,
suffering this same deprivation of counsel, deprived
access to the court, and violation of constitutional rights).
The state habeas court, magistrate court, district court
and lower courts have not adjudicated the true merits of
Mr. Reed's defenses, nor the federal questions of
unconstitutional violations of Mr. Reed's rights, from the
trial court throughout all post conviction proceedings.
Oral Amendment Of The Indictment Voids The
Indictment , Violates 14th Amendment Due Process
Of The Law
Georgia state law establishes that an indictment cannot
be amended after return from the grand jury, by adding to
or striking from its allegations, Gentry v. State, 63 Ga.
App. 275 (1940), (drawing its authority from federal law,
citing Stirone v. United States, 361 U.S. 212), Ingram v.
State, 211 Ga. App. 252, Goldsmith v. State, 58 S.E. 486
(1907) in doing so, the indictment becomes void.
After the jury had been sworn, during opening
statements, the prosecutor William Clark addressed the

5
jury prior to the introduction of the indictment, to inform
them that the date in the indictment is not correct.
Further instructing the jury not to be listening for
anything concerning the date in the indictment. See (Pet.
App. G, doc. Pg. 63, lines 17-24). This action of the officer
of the court is an oral amendment. The actions of William
Clark is an 'Admission in Judicio', that serves to strike
the date from the trial. The law states that as a result of
this amendment the indictment is void, and that a
conviction upon that indictment is illegal.
At the moment of the oral amendment the indictment,
the indictment became void. The law does not give way to
the fact of everything that proceed from the mouth of the
prosecutor prior to that moment during the opening
statements, provided enough information and evidence by
which to sustain the conviction of the petitioner. For
everything that e*tends from that moment forward
throughout the trial, became immaterial by operation of
law. This requires reversal. This constitutes Legal
Innocence.
Mr. Reed alleges that the indictment is void. Mr. Reed
doesn't challenge the face of the indictment. Mr. Reed
challenges the conduct of the officer of the court, orally
amending the indictment, and the condition of the

6
indictment as a result of his actions,.. rendering the
indictment void. The examination of the face of the
indictment does not reveal the violation of Mr. Reeds
right to due process of the law, nor does it reflect the
modification that was conducted orally which is evidenced
upon the record, outside of the body of evidence.
The court cannot proceed upon the trial with the
use of the date provided by the grand jury, as Mr. Clark
made an admission against the states interest, for the
state no longer alleges that any of the seven counts
occurred on the date stated in the indictment. The state
no longer alleges that it has brought forward and
commenced prosecution within any statutory time period.
The state no longer alleges that the criminal allegations
occurred prior to the suing out of the indictment by the
grand jury.
As a result of this oral admission, the state nor the
indictment alleges any exceptions.
The Oral Amendment Made By Prosecutor Does Violate
Petitioners 6th Amendment Right To Notice.
Mr. Reeds defense was surprised and prejudiced. The
defense was handicapped by the amendment, and the
states failure to give prior notice. As a result, the
indictment does not state sufficient facts;
Does not distinguish what time period, in existence,

that each independent charge alleges?
Does state if the charges in the indictment are from
the same set of operative facts?
Does not distinguish if the charges in the
indictment have various or multiple dates of occurrence?
Does not distinguish what time period, in existence,
that each independent charge alleges?
Does not distinguish if the charges in the indictment
have various or multiple dates of occurrence?
Does not state if any of the charges are alleged to have
occurred over a broad or short period of time?
Since a date had to be proven, which offense is to be
attributed to that unknown time period?
The indictment does not allege any exceptions.
Does not state if any of the charges are alleged to have
occurred over a broad or short period of time?
Since a date had to be proven, which offense is to be
attributed to that unknown time period?
The indictment does not allege nor show that the
indictment was returned before or after the alleged
criminal acts,? Or within limits of prosecution ? All are
relevant questions concerning the averment of time,
(day, month and year) that cannot be answered with
use of any evidence or testimony adduced upon the
trial.
The omission of the date cannot be supplied by intendment
or implication, and the charge must be made directly, and
not inferentially, or by way of recital, United States v.
Cruishank, 92 U.S. 542, p. 558 (1875). The state must show
indictment alleged date before return or conviction is illegal,

8
Minhinnett v. State, 106 Ga. 141 (1898). The amendment
made by the state violates the 6th amendment of the U.S.
Constitution right to notice, United States v Cohen, 255 U.S.
81 (1921) This circumstance requires reversal.
Petitioners Rights To Post Conviction Review And Direct
Appeal Have Been Unconstitutionally Foreclosed
Against Him By The Trial Court
A state defendant has a right to challenge issues of
constitutional rights violations for subjects that do not
require examination of the body of evidence pursuant to
O.C.G.A. 17-9-61(a)-(b) Motion In Arrest.
In line with the fact that a demurer attacks the legality
of an indictment, it is permissible to raise this ground
after verdict by a motion in arrest of judgement even if
there was no earlier objection. Ponder v State , 121 Ga.
App. 788 (1970).
The unconstitutional amendment of the indictment did
not occur prior to trial for a demurrer to be imposed. The
amendment occurred upon the trial setting, during
opening statements and prior to the introduction of
evidence. Thereby, the only medium to challenge and
present the correct allegations is by motion in arrest.
"Having granted a right of appeal to all convicted
criminal defendants, the state is forbidden by due process
and equal protection concern from arbitrarily excluding
any party from exercising that right. Evitts v. Lucey, 46

9
U.S. 387, 393 (1985).
Indigent Defendants Are The Deprived Class
Mr. Reed has been denied that right when he was not
appointed post conviction/ appellate counsel right after
trial.
The motion in arrest of judgement must be filed within
the same term of court as judgement. The court assumes
the initial responsibility for arranging and providing
appointed legal assistance for indigent defendants.
As an indigent, like so many others similarly situated,
Mr. Reed after trial, was not at liberty to conduct any
legal affairs relating to his conviction. The law establishes
that for a criminal defendant to represent himself in a
criminal case, he must first waive his right to counsel.
The waiver must be on the record, and the court must
determine that the waiver must be knowing and
intelligent. Faretta v. California, 422 U.S. 806 (1975).
Mr. Reed nor any other indigent defendant has any
recognizable access to the court while awaiting
appointment of counsel, and without a waiver on the
record.
As similarly situated in Bound v. Smith, 430 U.S.
817, 822... thee abuse occurred pre-filing, and its
denying defendants effective and meaningful access to
the courts. The states actions foreclose indigent
defendants from filing a motion to arrest judgement

10
and rendered ineffective any state court remedy
petitioner/defendants may have had.
The class that is being burdened by the deprivation
of constitutional rights systematically imposed by court
process or the lack thereof, are "indigent defendants"
those that are at a financial disadvantage and counsel has
to be appointed.
When Mr. Reed was not appointed counsel during the
same term of court as conviction. Mr. Reed was
permanently foreclosed from raising a void indictment
allegation

(Legal Innocence)... And any subsequent

appointed counsel is also foreclosed, for those allegations
cannot be introduced to the trial court for motion for new
trial nor direct appeal. This violates Mr. Reed's U.S.
Constitutional 6th amendment right to effective
assistance of counsel on appeal, 14th amendment right to
due process of the law, plus, 14th amendment right to
equal protection of the law, indigent defendants are the
targeted class, throughout the state of Georgia.
This conduct violates Mr. Reeds First amendment
constitutional right to petition the court. The law is.. In
order to pass constitutional muster, the access allowed
must be more than mere formality, Bounds v Smith, 430
U.S. 817 at 822. The court assumes the initial
responsibility for arranging and providing appointed

11
legal assistance for indigent defendants.
It is then the state that has violated Mr. Reeds First
Amendment right to access the court. This circumstance
requires reversal.
"Because the fundamental importance of assistance of
counsel does not cease as the prosecutorial process moves
from the trial to the appellate stage, the presumption of
prejudice must extend as well to the denial of counsel on
appeal, Penson v. Ohio, 488 U.S. 75, 88 (1988)."
The Sixth And Fourteenth Amendments Guarantee The
Effective Assistance Of Counsel Throughout Critical
Stage, This Has Been Violated By The State Trial Court
Although the sentencing court was made aware of the
intent to pursue post conviction review, like so many
other indigent defendants similarly situated, in Mr.
Reed's case he was sentenced on October 11, 2011,
however, post conviction appellate counsel Gerard
Kleinrock, on January 18, 2012, sent Mr. Reed notice of
his being appointed as counsel for appeal. (Pet. App. H-1)
Mr. Kleinrock works for the Public Defender's Office,
'whom represented the states witness in the same case.
Mr. Reed wrote a letter to the court and explained the
conflict of interest. Mrs. Teri Smith, was not appointed
until August 23, 2012, both appointments well after the
term of court as judgement rendered.(Pet. App. H-2 )

12
This manner of appointing counsel violates the U.S.
Const. Amend. XIV and VI because it does not afford due
process of the law by untimely appointing post conviction/
appellate counsel, nor does it provide equal protection to
indigent defendants such as Mr. Reed, when those outside
of the indigent class have no circumstances of being
restricted by the same manner of court operations that
does impede and restrict access to properly petitioning the
courts.
The term of court complained of in Mr. Reed's case
ended the first Monday of November 2011, as set forth by
the Georgia legislature. The law constitutes the motion in
arrest judgement as a critical stage.
At the close of the business day on the last day of the
term court, which was the first Monday of November,
2011, in Mr. Reed's case, like so many other indigent
defendants suffering similar circumstances, Mr. Reed is
disadvantaged, as other indigent defendants have been
and are being disadvantaged by a court procedure that
deprives him of the effective assistance of counsel by
suppressing the availability of filing a motion in arrest
(O.C.G.A.17-9-61) through limiting the availability of
appellate counsel. This is "Structural Error" by which the
law provides one outcome. This circumstance requires

13
reversal.
A Void Order Is Void Ab Initio And Does Not Have To Be
Declared Void By A Judge.
The lower courts, district courts, magistrates R&R and
the state habeas courts finding relies upon the same state
courts factual findings, unsupported by any evidence,
unsupported by any applicable law, and unauthorized in
accordance with state and federal law.
Mr. Reed, untrained in law, did file a motion for new
trial, in the trial court, including the following
enumerations of error: fatal variance; statute of
limitations; constructive amendment to the indictment;
impermissible amendment to the indictment; courts
actions restricted defendant access to the court to file
motion in arrest etc. However, Georgia state law dictates
that the motion for new trial is not an appropriate vehicle
by which to challenge the aforementioned claims of error.
That the court under a motion for new trial does not have
the subject matter jurisdiction by which to adjudicate
those claims, State v Graves, 322 Ga. App. 798 (hn.
(1)-(2), fn. 3-4) (2013).
Instead of the trial court dismissing those claims for
being filed in the wrong court, for the trial court not
having the authority to review those claims in a motion or

14
new trial, the court elected to draft an 'order' appearing to
have adjudicated the merits of those claims, (see Order
denying 'Motion for New Trial Pet. App. F.) Mr. Reed
contends as the law demonstrates, the ruling of that court
is without jurisdiction.
Mr. Reed did file the same enumerations of error, in
addition alleging constitutional violations, before the state
supreme court on direct appeal. Instead of that appellate
court following the law and dismissing those
enumerations, that court also elected to fashion a final
order, appearing to have adjudicated those same
enumerations of error, (see Final Order denying appeal
Pet. App. D-2). In holding, the state law establishes:
A motion for new trial is not the proper method to attack
the sufficiency of an indictment and does not provide a
basis for the court of appeals to review the indictment".
Boswell v. State, 114 Ga. 40, 42 (1)(1901); Thompson v.
State, 58 Ga. App. 452, 453 (1938); McKay v. State, 234
Ga. App. 556, 557(14)(1998)... This issue, along with the
other aforementioned,.. are debatable among jurist.
When a final judgment "carr[ies] the evidence of its
own infirmity," the Court may consider the record and
the pleadings in determining whether the judgment is
void. A void order is void ab initio and does not have to
be declared void by a judge. The law is established by
this court in Valley v. Northern Fire & Marine Ins. Co.,

15
254 U.S. 348, (1920). Pursuant to the Valley court
decision, a void order does not have to be reversed by
any court to be a void order. Courts have also held
that, since a void order is not a final order, but is in
effect no order at all, it cannot even be appealed.
Courts have held that a void decision is not in essence
a decision at all, and never becomes final. Consistent
with this holding, in 1991, this Court stated that,
"Since such jurisdictional defect deprives not only the
initial court but also the appellate court of its power
over the case or controversy, to permit the appellate
court to ignore it. ...[Would be an] unlawful action by
the appellate court itself." Freytag v. Commissioner,
501 U.S. 868 (1991), United States v Walker, 109 U.S.
258 (1983). Following the same principle, it would be
an unlawful action for a court to rely on an order issued
by a judge who did not have subject-matter jurisdiction
and therefore the order he issued was Void Ab Initio.
In accordance with he AEDPA provisions and the
holdings of this court, a writ of Habeas corpus should
have issued from the magistrate court, a COA should
have issued from the district court and lower court. Cronic
dictates that the circumstances evidenced by the
Appendix show that Mr. Reed is entitled to a reversal.

Special Prayer For Relief
The magistrate court, district court and lower court
have not thoroughly investigated the true merits of Mr.
Reeds petitions, and have not applied the law as this
court provides. The rulings of each state court and all the
lower federal courts, could qualify Mr. Reed for at
minimum, a thorough review from this court, if following
the basic guide of the rules of court rule 10 (a)-(b)-(c).
Each ruling is clearly wrong, and does not follow any
recognized standards of review.
Adopting the ruling of a court with clearly no subject
matter jurisdiction, is a clear and bold departure from
every qualified standard of law.
The decisions of the aforementioned courts are in
direct conflict with the precedent handed down from this
court.
The decisions of the highest state court is in direct
conflict with any other state supreme court on the subject
presented before the court.
The rulings and conduct of the lower reviewing courts
show a clear flagrant departure from the accepted and
usual course of judicial proceedings.
The rulings and determinations made by the lower
court of appeals is completely in conflict with every other
federal court of appeals. A void judgment is one which,

from its inception, is and forever continues to be
absolutely null, without legal efficacy, ineffectual to bind
the parties or to support a right, of no legal force and
effect whatever, and incapable of enforcement in any
manner or to any degree. Judgment shown by evidence
to be invalid for want of jurisdiction is a void judgment or
at all events has all attributes of a void judgment.
The rulings from the lower courts and state courts are
an unconstitutional injustice.
The Petitioner in this matter before this court is
earnestly seeking a qualified review of all of the provable
1st Amendment, 6th amendment, and 14th amendment
constitutional violations.
The allegations in this petitioning of this court have
not been adjudicated. The petitioner is seeking from this
court at minimum, a Certificate of Appealability. There is
enough that has been disregarded by the previous courts,
to qualify the petitioner for reversal. There is no qualified
opposition from the respondents, the lower federal courts,
nor the sate habeas court.
Petitioner does assert before this court, the defense of
Legal Innocence.
This case has the right format by which to make a
binding ruling to address the departure from the AEDPA
standards that determine the manner of review for cases

that come before the magistrate courts. Although some
circuits have arrived at accepting any ruling from a state
court as an adjudication on the merits, by which federal
courts defer to those state court rulings, which in many
cases never reaching the merits or any of the substantial
details of the pleadings, .. if it is the adoption of that same
standard by the Eleventh Circuit, then in this matter
before the court there is n insurmountable amount of law
that negates that application as being in uniform with the
AEDPA provision §2254 (d)(1)-(2). To take a ruling no
matter how bizarre, how inappropriate or lacking in
specificity , and fashion a denial based upon those
inadequate findings and reasoning's, or even adopt the
same, in contravention of statutes and precedent that
instructs otherwise, demonstrates an open disregard for
the law. That most certainly does not define "adjudication
on the merits"
'Constitutional Guarantee' is promulgated throughout
law in rulings, commentary, books and other forms of
illustrations, lectures.. However, there cannot logically be
any constitutional guarantees in law, if no one applies
and strictly enforces [t]hat of which is stated as a
guarantee for the citizens under the U.S. constitution. If
constitutional guarantee is not, without discrimination,
available to all, then those guarantees are only marginal.

Georgia defendants are met with a pressing situation
where their defenses are not being heard in the state
courts. Defenses against the indictments.
Demurrers are available to challenge what is readily
apparent upon the face of the indictment, and before trial.
However, changes and alterations made upon the trial are
challenged in a motion in arrest after judgment.
The problem that goes along with having a
constitutional violation exist or occur during the trial
arena, is not having counsel to introduce those violations
before the appropriate court setting. Once an indigent
defendant is sentenced, if that defendant intends to
pursue post conviction relief or an appeal, then that
defendant is further awaiting re-appointment of appellate
counsel.
Appellate counsel is appointed after sentencing
anywhere from (4) months, to maybe (2) years. By the
time of appointment, defendant is forever foreclosed of
presenting those violations, with the meaningful help of
trained counsel. At the trial and appellate stage the
defendant has his hands tied, not being able to make
challenges concerning his or her conviction. For at the
trial and appeal stage a defendant is required by law to
make a waiver of counsel on the record. However, the
defendant is not scheduled to re-appear back in the court

arena without the filing of an action by counsel.
The option to be able to challenge and present certain
defenses expires as the term of court expires on the last
day of that same term, the close of the business day. At
that moment additional constitutional violations arise. A
defendant is now faced with a first amendment claim for
not being able to access the court, .. without counsel; a
sixth amendment claim of deprivation of effective
assistance of counsel; (2) fourteenth amendment claims
for not being provided due process of the law for not
having access o the court nor being timely appointed
counsel, and as an indigent, not being afforded equal
protection of he law. Although subsequent habeas
petitions can be later filed, however, this initial
constitutional violation is not dismissed as though it
didn't happen. The petitioner characterizes it as
systematic, because it keeps reoccurring in common.
This court has the evidence of how the state of
Georgia views the importance of this circumstance, by an
examination of this case in whole. This case reflects the
complication with those others that are similarly situated,
..that their claims in the state courts are met with the
folding of arms.. It take the overseeing power of this court
to bring about change and enforce that of which is
guaranteed.

Rule 10. Considerations Governing Review on
Certiorari
Review on a writ of certiorari is not a matter of right, but
of judicial discretion. A petition for a writ of certiorari will
be granted only for compelling reasons. The following,
although neither controlling nor fully measuring the
Court's discretion, indicate the character of the reasons
the Court considers: (a)a United States court of appeals has entered a decision in
conflict with the decision of another United States court of
appeals on the same important matter; has decided an
important federal question in a way that conflicts with a
decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court's supervisory
power; (b) -a state court of last resort has decided an
important federal question in a way that conflicts with
the decision of another state court of last resort or of a
United States court of appeals; (c) a state court or a
United States court of appeals has decided an important
question of federal law that has not been, but should be,
settled by this Court, or has decided an important federal
question in a way that conflicts with relevant decisions of
this Court.

CONCLUSION

For the foregoing reasons, Petitioner Mark R.A. Reed
respectfully request this court to reconsider its decision
entered on March 22, 2021, that this court grant
certiorari to the United State Court of appeals for the
Eleventh Circuit, vacating the Eleventh Circuits
judgement, and remand with instructions for the lower
court to issue a Certificate of Appealability.

Mark R. A. Reed
Georgia State Prison
GDC 1000664635
300 1st Avenue , South
Reidsville, Georgia 30453

Dated: April 21, 2021

(Signature

APPENDIX. A
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
This case involves a state criminal defendants
under the First, Sixth, and
constitutional rights
Fourteenth Amendments, and is governed by the
Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"), codified in relevant part at 28 U.S.C. § 2254,
28 U.S.C. §2253
The First Amendment to the United States Constitution
provides in pertinent part the following:
Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, to petition the
Government for a redress of grievances.
U.S. const.amend. I
The Sixth Amendment to the United States Constitution
provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have
been committed, which
district shall have been
previously ascertained by law, and to be informed of the

nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
U.S. Const. Amend. VI
The Fourteenth Amendment to the United States
Constitution provides:
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
U.S. Const.Amend. XIV
28 U.S.C. § 2253 provides, in pertinent part:
(c)(1) Unless a circuit justice or judge issues a certificate
of appealability, an appeal may not be taken to the court
of appeals from—
(A)the final order in a habeas corpus proceeding in
which the detention complained of arises out of
process issued by a State court
* * *

(2) A certificate of appealability may issue under
paragraph (1)
only if the applicant has made a substantial
showing of the denial of a constitutional right.

28 U.S.C. §2254

(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgement of State court shall not be granted with
respect to any claim that was adjudicated on the
merits in State court proceedings unless the
adjudication of the claimsresulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
resulted in a decision that was based on an
unreasonable determination of the facts....

APPENDIX A-1Order of the United States Supreme Court
denying cert review March 22, 2021

